U.S. Department of Agriculture
  Office of Inspector General
       Southwest Region
         Audit Report



     Food and Nutrition Service
       Food Stamp Program
      Quality Control Process
        Southwest Region




                Report No.
                27002-3-Te
                May 2001
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                OFFICE OF INSPECTOR GENERAL
                                       Southwest Region
                                        101 South Main
                                      Temple, Texas 76501


DATE:        May 8, 2001

REPLY TO
ATTN OF:     27002-3-Te

SUBJECT:     Food Stamp Program – Quality Control Process

TO:          Ruthie Jackson
             Regional Administrator
             Southwest Region
             Food and Nutrition Service
             Dallas, TX 75242

We conducted an audit of the Food and Nutrition Service Regional Office
(FNSRO) Quality Control (QC) Operations for fiscal year (FY) 1999. We
reviewed QC files for the two States in the Southwest Region that received
enhanced funding. Texas and Arkansas received $27,941,372 and $4,099,364,
respectively, in enhanced funds because their payment error rate (PER) was
under the national performance measure of 5.9 percent.

We found a FNSRO detected QC case error in Arkansas was erroneously
overturned in informal resolution. This error occurred because all available
information was not in the case file for the informal resolution panel to consider.
Therefore, the case reverted to the State Agency’s (SA) original no finding
determination when the case was actually a State caused error resulting in a
$15 monthly overissuance of food stamp benefits to the recipient. The error
increased the Arkansas FY 1999 PER from 4.54 to 4.56; however, this change in
the PER did not affect the amount of enhanced funding that Arkansas received in
FY 1999.

In FNSRO’s official’s response, dated April 20, 2001, they stated that the
recommendation could not be accomplished because provisions in the Food
Stamp Act of 1977 required all case reviews and State-Federal differences be
completed not later that 180 days after the end of the FY and that 30 days
thereafter, the Secretary would determine final error rates. They concluded that
these provisions of law prohibited changes to the individual case findings, a SA’s
PER, or the national average PER.
Ruthie Jackson                                                                       2


Although we believe that the law does not prohibit changing the PER if an error
has occurred, because of the relatively small effect of this error, we have
changed the recommendation so that FNSRO should inform the Arkansas SA of
this error and that the correct PER for FY 1999 should have been 4.56 percent.

BACKGROUND

The SA’s are responsible for administering the Food Stamp Program according
to the Food Stamp Act, Federal regulations, and their Food and Nutrition Service
(FNS) approved plan of operation. Each SA shall have a performance reporting
system (PRS) for monitoring and improving its administration of the program.
The SA PRS shall include a system for performing QC reviews and implementing
corrective action plans (CAP). QC reviews provide: (a) a basis for determining
certification error rates, (b) a timely and continuous flow of information on which
to base corrective action at all levels of administration, (c) a basis for establishing
SA liability for error rates that exceed the national tolerance level, and (d) a basis
for awarding enhanced funding to SA’s.

FNS is responsible for conducting an annual review of certain functions
performed at the SA level in the administration/operation of the program. FNS
shall validate each SA’s payment error rate and underissuance error rate during
each annual quality control review period. FNS will conduct case record reviews
to the extent necessary to determine the accuracy of the SA’s findings using
household certification records and the SA’s QC records as the basis of
determination. Any deficiencies detected in the SA’s QC system shall be
included in the SA’s CAP.

In FY 1999, only two States in the five State Southwest FNS region received
enhanced funding because their PER was under the national performance
measure. The national performance measure was 5.90. The Arkansas PER was
4.54, and the Texas PER was 4.56.

Informal resolution is a process that provides an avenue for States to challenge
what they believe to be incorrect Federal findings. This is not a process of
negotiation or compromise between the Federal and SA’s. Informal resolution
can only begin after the Federal findings for a case are transmitted to a SA and
the State expresses its wish to challenge those findings.

If, through informal resolution, the SA and FNSRO agree to a modified Federal
finding prior to the 20-day deadline for requesting arbitration of the original
finding, the new finding must be transmitted to the SA. In such circumstances,
the SA retains the right to request arbitration of the new Federal finding, if they
are in disagreement with the new finding.
Ruthie Jackson                                                                      3

OBJECTIVE

The objective of our audit was to determine whether FNSRO properly granted
enhanced funding to States in the Southwest Region.

SCOPE AND METHODOLOGY

To achieve our objective, we reviewed agency regulations, policies and
procedures relevant to QC operations. We obtained Federal QC files from the
FNSRO and State QC files from the Texas and Arkansas SA’s. Our audit
included a review of these files relevant to the final disposition of the QC reviews
conducted by the FNSRO. We also conducted interviews with Federal QC
reviewers and officials at the FNSRO in Dallas, Texas.

We reviewed 48 cases from the QC case record reviews conducted by the
FNSRO staff for FY 1999. During the FY 1999 QC review period, FNSRO QC
staff reviewed 609 total cases in Texas and 588 in Arkansas. We selected all
38 cases where Federal reviewers had nonconcurrence with State reviewers’
decisions (8 cases in Texas and 30 in Arkansas). These cases included three
from Texas and five from Arkansas that went through the informal resolution
process. We also selected 10 additional cases (5 from Arkansas and 5 from
Texas) from the subsample listings sent to the SA’s from FNS.

We conducted our audit from October 2000 to March 2001 in accordance with
Government auditing standards.

FINDINGS

A QC error detected by Federal reviewers for Arkansas was erroneously
overturned in informal resolution because all the available information was not in
the case file to be considered during the decision process. The error increased
the Arkansas FY 1999 PER from 4.54 to 4.56. However, the change in the PER
did not affect the amount of enhanced funding Arkansas received in FY 1999.

According to FNS Handbook 315, required records include “the household’s
complete certification case record from the local office and the SA’s complete
quality control record.” It further states “The Federal reviewer must ensure that
all information needed from the certification case record to support the Federal
reviewer’s decision is documented in the Federal record.”

We reviewed all Federal QC cases with findings that were overturned in informal
resolution for those States that received enhanced funding. Federal case
AR 220 was selected for QC review for the sample month of April 1999. The
State QC found no error with the case. Two Federal reviewers reviewed the
case file and both found a $44 overissuance based on the inappropriate
application of the standard utility allowance by the State eligibility worker. A third
review was conducted by a senior Federal reviewer to verify the Federal review
Ruthie Jackson                                                                    4


results. During informal resolution with officials of the Arkansas SA and FNSRO,
the senior reviewer recommended that the decisions of the first two reviewers be
overturned.

Our review of case AR 220 determined that there were notes in the client file that
showed the SA knew prior to approval of the application that the client did not
pay the electric bill. The exspouse, who did not live in the household, paid the
electric bill. The household also did not have any out-of-pocket heating or
cooling expense. The household did have out-of-pocket expenses for water,
phone and garbage in which regulations allow the client to take actual costs for
utilities paid by the household if they do not qualify for the standard utility
allowance. The Federal reviewers’ $44 overissuance did not take into account
the actual expenses paid by the client.

By allowing the actual expenses paid by the client, we determined that the client
was overissued $15 in food stamps for the sample month. Federal QC personnel
have reviewed our finding and agreed with our determination. In addition, the
FNSRO officials notified the Arkansas SA of the discrepancy for case AR 220.

We interviewed the Federal senior reviewer concerning case AR 220. The senior
reviewer provided a written explanation why the case was overturned during
informal resolution. According to the senior reviewer, the first Federal reviewer
did not copy and prepare a “dummy” case file with the needed information to
support the Federal variance. Since the variance could not be supported during
informal resolution, the decision defaulted back to the State’s original zero dollar
error determination.

According to FNSRO QC officials, the FNSRO implemented a policy to ensure
that all documentation was available to support all variances found by Federal
reviewers. This policy was implemented after case AR 220 was overturned
during informal resolution. However, after implementation of this policy, FNSRO
QC personnel did not reexamine case AR 220 to determine the accuracy of the
informal resolution decision.

We had the FNSRO statistician run a new error rate calculation for the State of
Arkansas because of the error we found. Recalculation of the error rate based
on the additional error changed it from 4.54 percent to 4.56 percent, a difference
of 0.02 percent. Using the formula supplied in the Code of Federal Regulation
(CFR) 7 CFR 277.4, the PER for Arkansas would have had to increase by
1.46 percent before there would have been an effect on the enhanced funding
earned by Arkansas.

RECOMMENDATION

Inform the Arkansas SA of this error and that the correct PER for FY 1999 should
have been 4.56 percent.
Ruthie Jackson                                                             5


Please provide a written reply within 60 days describing the actions taken to
address our recommendation. Note that Departmental regulations require that a
management decision be reached on the recommendation within a maximum of
6 months from report issuance. We appreciate the courtesies and cooperation
extended to our staff during this review.



       /s/
ROBERT E. GRAY
Regional Inspector General
  for Audit

Attachment
Ruthie Jackson                6


Attachment A – FNS Response
